               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Management of Business Master
             Trust Accounts

         Management Advisory Report




                                          September 5, 2012

Report Number FF-MA-12-010
                                                                   September 5, 2012

                                           Management of Business Master Trust
                                                                    Accounts

                                                       Report Number FF-MA-12-010



BACKGROUND:
The U.S. Postal Service maintains          WHAT THE OIG FOUND:
customer advance deposit trust             The Postal Service is effectively
accounts in the PostalOne! system.         managing advance deposit trust
Customers use these accounts to pay        accounts to collect and record all
for business mailings. Customers           business mail revenue. We identified
deposit funds in their accounts and        538 customers (0.14 percent of all
present mailings with postage              customers) with account balances
statements detailing the cost of the       exceeding $100,000, totaling $142.8
mailings. The Postal Service withdraws     million (29 percent of all business
funds for business mailings based on       account balances). Eighty-seven
the postage statements. The Postal         percent of customers surveyed use
Service is responsible for managing        either PostalOne! or a combination of
these accounts by accurately recording     PostalOne! and their own records to
customer deposits and withdrawals          manage their advanced deposit trust
when a mailing occurs and maintaining      account balances.
and reporting customer information.
                                           We concluded that customer account
As of May 2012, there were 389,142         records reconciled to balances
business master trust accounts valued      maintained in PostalOne! and
at $496 million. Our objective was to      customers had legitimate reasons for
determine whether the Postal Service is    maintaining large account balances.
effectively managing advance deposit
trust accounts to collect and record all   WHAT THE OIG RECOMMENDED:
business mail revenue. Specifically, we    Since the Postal Service was effectively
focused on customer accounts with high     managing advance deposit trust
account balances (greater than             accounts, we are not making
$100,000 but never lower than $25,000      recommendations at this time. This
for the past year).                        report is being provided for informational
                                           purposes.

                                           Link to review the entire report
September 5, 2012

MEMORANDUM FOR:            PRITHA N. MEHRA
                           VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                           TECHNOLOGY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Management Advisory Report – Management of
                           Business Master Trust Accounts
                           (Report Number FF-MA-12-010)

This report presents the results of our review of the Management of Business Master
Trust Accounts (Project Number 12BG026FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Corporate Audit and Response Management
Management of Business Master Trust Accounts                                                                       FF-MA-12-010



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Advance Deposit Trust Account Balances ...................................................................... 2

Advance Deposit Trust Account Transactions ................................................................. 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7
    Management of Business Master Trust Accounts                                                   FF-MA-12-010




Introduction

This report presents the results of our review of the management of business master
trust accounts (Project Number 12BG026FF000). Our objective was to determine
whether the U.S. Postal Service is managing advance deposit trust accounts to collect
and record all business mail revenue. This self-initiated review addresses financial risk.
See Appendix A for additional information about this review.

Postal Service business mail customers are required to deposit funds into a Postal
Service maintained advanced deposit (business master) trust account to pay for future
services used by the mailer. The Postal Service has the responsibility to effectively
manage these accounts by accurately recording customer deposits and withdrawals
when a mailing occurs. Additionally, management of these accounts includes the proper
maintenance and reporting of customer account information. As of May 2012, there
were 389,142 business master trust accounts valued at $496 million. Of these
389,142 accounts, 538 accounts (0.14 percent) had a balance greater than $100,000,
totaling $142.8 million (29 percent). Our review focused on customer accounts with high
account balances.1

Conclusion

The Postal Service is managing advanced deposit (business master) trust accounts to
collect and record all business mail revenue. Our examinations of apparent anomalous
balances and transactions confirmed that customers had legitimate reasons for
maintaining account balances in excess of $100,000, and all transactions were proper.
Additionally, we concluded that, generally, customer account records reconciled to
balances maintained in the PostalOne! system.2 Eighty-seven percent of customers
surveyed use either PostalOne! or a combination of PostalOne! and their own records to
manage their advanced deposit trust account balances.

We discussed identified potential account anomalies with customers and found
customer's transactions resulted from their normal business practices, such as
transferring money between accounts to cover mailing costs. We also discussed
transactions processed in a manner to compensate for the Postal Service’s Point of
Service (POS) system3 limitations, such as prohibiting deposits of $1 million or more.
Customers provided reasonable explanations regarding these apparent account
anomalies.




1
  We define high customer account balances as greater than $100,000 as of May 2, 2012, but never lower than
$25,000 for the past year.
2
  The PostalOne! system is a suite of services that offers web-based initiatives for business mailers and business
mail acceptance employees.
3
  POS is the electronic system used at retail facilities to record sales and payment transactions.
                                                              1
Management of Business Master Trust Accounts                                                         FF-MA-12-010



Because the Postal Service was effectively managing advance deposit trust accounts,
we are not making recommendations at this time. This report is being provided for
informational purposes.

Advance Deposit Trust Account Balances

Based on a survey of 200 customers, we determined the account balances in
PostalOne! were accurate. We mailed 200 surveys to advance deposit trust account
customers with high balances and received 133 responses (67 percent). Based on our
review of the 133 responses, we determined:

        Eighty-seven percent of customers use PostalOne! to manage their accounts.

        Fifty percent of the customers that responded relied solely on PostalOne!.

        Thirty-seven percent of the customers that responded relied on both their own
         records and PostalOne!.

        Thirteen percent of customers relied solely on their own records and were unaware
         of their balance in PostalOne!.

Table 1 displays summary information obtained from the customer questionnaires.

                        Table 1. Customer Questionnaire Summary
              Questionnaires Mailed                                                                200
              Questionnaires Returned                                                              133
                Customers Relied on PostalOne!                                                      66
                Customer Relied on Own Records and
                PostalOne!                                                                           50
                Customers Relied on Their Own Records                                                17
             Source: Customer questionnaires from a U.S. Postal Service Office of Inspector General (OIG)
                    4
             survey.

Based on our review of the survey results, we concluded that half of the customers do
not have the ability to reconcile their accounts to Postal Service records. Therefore, if
the Postal Service would mistakenly not charge or over charge a customer for a mailing,
neither the Postal Service nor the customer would be aware of the error. However,
when we compared the balances provided by customers to PostalOne! balances, we
found a net difference of $101,751, which was 0.22 percent of the customers total
account balance. We did not find significant differences that would indicate an over or
under charge. Table 2 provides account balance information obtained from the
customer questionnaires.




4
    Questionnaires sent on July 2 and 3, 2012.


                                                          2
Management of Business Master Trust Accounts                                                          FF-MA-12-010




                                    Table 2. Questionnaire Results
                                                           Instances                      Dollar Value
     Questionnaires Mailed                                                    200                         N/A
     Questionnaires Returned                                                  133                         N/A
     Customer reported balance larger than
     PostalOne!                                                                 16              ($539,643)
     Customer reported balance smaller than
     PostalOne!                                                                 10                 641,394
     Net difference                                                             26                $101,751
    Source: Customer questionnaires and PostalOne! balances.

In addition to reconciling customer account balances with Postal Service balances, we
examined unusual advanced deposit (business master) trust account balances and
determined the following:

     We identified 200 customers who had, in our opinion, more money on deposit than
      needed to cover the costs of their mailings. The total account balance for these
      customers was $72.3 million, averaging over $361,000 per customer. We did not
      believe there would be a compelling business reason for a customer to keep a
      large balance with the Postal Service, as this money is not accruing interest and is
      not readily available to the customer for anything other than paying for postage.
      We initially thought the Postal Service may not have entered postage statements
      causing the high balances; however, we found customers had legitimate reasons
      for maintaining large balances in their accounts.

According to our survey, customers wanted to ensure that they have enough money in
the account for mailings and that they do not spend it in other areas throughout the
year. In another instance, the customer stated that five different departments within the
organization use one account. Each department is responsible for having enough
money for their mailings so they do not use any of the other department's funds. These
reasons explain why customers maintain larger balances than needed to cover the
costs of their mailings.

     We found a customer who did not know a PostalOne! account existed in the
      customer’s name. The customer uses a mailing agent to process mailings and did
      not realize there was an advanced deposit account.5 It was only after the customer
      spoke with the OIG and researched the account that the customer realized there
      was a balance of $127,386. We considered this an isolated incident and do not
      believe it is a systemic issue.




5
 Mail owners may decide to use a mailing agent to submit bulk business mailings to the Postal Service. Mailing
agents may provide services ranging from delivering a mailing to the Postal Service for acceptance to designing,
printing, and sorting.


                                                          3
Management of Business Master Trust Accounts                                                           FF-MA-12-010



     An evaluation of the 200 customers with high account balances showed that 126
      (63 percent) of the customers were government agencies. Chart 1 displays the
      breakdown of customers with high account balances.

                            Chart 1. Types of Questionnaire Recipients




                              74 (37%)                                   Governmental
                                                                         Customers
                                                                         Non- Governmental
                                                126 (63%)                Customers




                    Source: Assumption based on the customer names as recorded in PostalOne!.

Advance Deposit Trust Account Transactions

We judgmentally sampled 271 advanced deposit (business master) trust account
customers6 and reviewed their records of mailing in PostalOne! from October 1, 2009,
through May 31, 2012. Based on our review, we identified 100 customers with
anomalies, such as multiple deposits on the same day, minutes apart. We spoke with
30 customers to follow up on unusual transactions. Customers provided reasonable
explanations regarding these apparent account anomalies. Following are a few
examples of the explanations we received.

     Customers made multiple large deposits recorded on the same day. However,
      these transactions were legitimate because they had to split their deposits, as the
      POS System would not accept a deposit of $1 million or more. 7

     Nine customers maintained permit accounts that handle mailings for multiple
      customers and, as a result, have no apparent pattern to their mailings. There are
      mailers who use another’s account, such as a mailing house, because, among
      other reasons, they do not have sufficient volume to justify the expense of having
      their own account.8

6
  All 271 customers had account balances greater than $100,000 as of May 2, 2012. However, 71 customers had
balances that fell below $25,000 at one point, but they had transactions that we chose to investigate.
7
  We validated the system had a control in place to disallow deposits exceeding $1 million or more.
8
  The Domestic Mail Manual recognizes this as a proper business relationship. For example, DM-109, Section 3-3.2
states that if a permit imprint number is used as the postage payment method, Postal Service personnel should
validate that it belongs to either the mail owner or the mail preparer and that it matches the permit on the postage
statement.


                                                          4
Management of Business Master Trust Accounts                                  FF-MA-12-010




    Eleven customers had multiple accounts with the same Postal Service unit. Having
     multiple accounts enables the customer to transfer funds between accounts. One
     reason customers maintain multiple accounts at the same unit is to help control the
     accounting for the different types of mailing they do. Another reason is to
     segregate mailing for different departments within an organization.

    We could not discern a general pattern of deposits and withdrawals used by all or
     a majority of customers. Customers maintained account balances by either
     following a deposit with a series of mailings or depositing funds for a specific
     mailing. Therefore, we could not establish a general rule to aid us in establishing
     anomalous activity. For example, one customer made two deposits and
     447 withdrawals during our review period, while another mailer made 29 deposits
     and 38 withdrawals.

Because the Postal Service was effectively managing advance deposit trust accounts,
we are not making recommendations at this time. This report is being provided for
informational purposes. Since there were not any recommendations provided,
management chose not to formally respond to the report.




                                               5
Management of Business Master Trust Accounts                                                             FF-MA-12-010



                                  Appendix A: Additional Information

Background

The Postal Service maintains business master trust accounts in PostalOne!. The
customers use these advance deposit accounts to pay for business mailings.
Customers deposit funds in their accounts and present mailings with postage
statements detailing the cost of the mailings. The Postal Service withdraws funds for
business mailings in PostalOne! based on the postage statements presented. According
to PostalOne!, as of May 2, 2012, 538 customers had account balances exceeding
$100,000.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service is managing advance
deposit trust accounts to collect and record all business mail revenue. To accomplish
this objective we performed the following activities:

      Interviewed Postal Service Headquarters personnel to determine whether they are
       currently working on any projects that would have an impact on our objective and
       to obtain information about the advance deposit account program.

      Obtained balances for all permit, Periodicals, and Business Reply Mail/postage
       due9 accounts that are maintained in PostalOne! as of May 2, 2012.

      Using these balances, the team judgmentally selected 200 business mail
       customers10 to send questionnaires to request account information. We selected
       customers that maintained a balance of at least $100,000 as of May 2, 2012, and
       no less than $25,000 during the past year.

      Reviewed questionnaire information to determine whether the customers balance
       differed from the amount in PostalOne! and if the customers maintain their own
       account records and reconcile with PostalOne!.

      Obtained transaction data from PostalOne! for 271 business master trust
       accounts11 from fiscal year 2010 to present. We analyzed the data to determine

9
  Permit accounts are authorized to mail by using indicia or an imprint in place of stamps or meter impressions.
Payment is made against an advance deposit account that is established with Postal Service for postage and
services. Periodicals are a mail class consisting of magazines, newspapers, or other publications that are issued at
least four times per year at regular, specified frequency from a known office of publication. Business Reply Mail is a
domestic service that allows a mailer to receive First-Class Mail® pieces back from customers and pay postage only
for the pieces returned to the mailer from the original distribution of Business Reply Mail pieces. Postage due is mail
in which additional postage is collectable on final delivery, generally because of forwarding or additional services
provided.
10
   The sample included customers that had account balances greater than $100,000 as of May 2, 2012, but never
lower than $25,000 for the past year.
11
   All 271 customers had account balances greater than $100,000 as of May 2, 2012. However, 71 customers had
balances that fell below $25,000 at one point, but they had transactions that we chose to investigate.


                                                           6
Management of Business Master Trust Accounts                                 FF-MA-12-010



     whether there were any inconsistencies in deposits or withdrawals that would
     necessitate follow-up with the customer. In addition, we looked for cases in which
     the customer regularly deposits cash and then receives a refund. This could
     potentially be an indication of money laundering.

We conducted this review from May through September 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 24, 2012, and included their comments where appropriate.

We assessed the reliability of PostalOne! data by performing electronic testing of
required data elements and interviewing agency officials knowledgeable about the data.
We determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

                                                        Final
                                                       Report          Monetary
         Report Title               Report Number        Date            Impact
Northland District – Business      FF-AR-09-224       9/28/2009          $3,664
Mail Entry Financial Risk
Report Results: Internal controls over timely postage statement entry, customer
trust accounts, and transaction overrides were generally in place and effective.
However, the OIG identified a few areas related to late postage statements, inactive
customer deposit accounts, and Periodicals verifications in which the Postal Service
could improve. OIG recommended management provide random, monthly, and in-
depth verifications of time-sensitive Periodicals. Management agreed with the
finding and recommendation, and action taken was responsive.




                                               7
